               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Express Mail Corporate Account
                 Revenue

                       Audit Report




                                              March 1, 2013

Report Number DP-AR-13-003
                                                                          March 1, 2013

                                            Express Mail Corporate Account Revenue

                                                         Report Number DP-AR-13-003




BACKGROUND:
Express Mail is the U.S. Postal               WHAT THE OIG FOUND:
Service’s premium delivery service with       The Postal Service did not collect all
a money-back guarantee and overnight          revenue for services provided to
delivery. The Postal Service receives         Express Mail corporate account
payment for Express Mail through stamp        customers. Specifically, Postal Service
sales, postage meters, automated              personnel did not follow acceptance
postal centers, and electronic                procedures or use existing management
payment options such as PC Postage            reports to identify mail processing
and Click-N-Ship. In addition, the Postal     facilities not complying with procedures
Service offers business customers use         to properly accept Express Mail
of an Express Mail® corporate account         packages. In addition, delivery unit
to prepay for postage through a credit        personnel were not required to provide
card or automated clearinghouse debit.        additional safeguards against
The Postal Service receives payment for       uncollected revenue, such as
corporate account pieces by manually          processing an acceptance transaction
withdrawing postage from the account          when scanning individual Express Mail
when the piece is properly accepted.          pieces for delivery.

Postal Service personnel have                 We estimated that the Postal Service
expressed concern that corporate              did not collect about $1.75 million
account pieces are delivered without          annually in revenue for corporate
revenue being collected, unlike               account pieces and would continue to
noncorporate account pieces that can          lose at least $1.3 million annually.
be paid through stamp sales and
postage meters. In fiscal years 2011          WHAT THE OIG RECOMMENDED:
and 2012, corporate account revenue           We recommended management use
was $71.6 million and $63.6 million,          available management reports to
respectively, from a volume of                identify and notify mail processing
3.1 million and 3.0 million pieces,           facilities not following Postal Service
respectively.                                 procedures to improve full acceptance
                                              transactions for Express Mail corporate
Our objective was to determine whether        account pieces. Additionally,
the Postal Service collects all revenue       management should update and reissue
for services provided to Express Mail         procedures for delivery units to identify
corporate account customers.                  and properly accept corporate account
                                              pieces that have not yet been accepted.
                                              Link to review the entire report
March 1, 2013

MEMORANDUM FOR:            DAVID E. WILLIAMS, JR.
                           VICE PRESIDENT, NETWORK OPERATIONS

                           EDWARD F. PHELAN JR.
                           VICE PRESIDENT, DELIVERY AND POST OFFICE
                           OPERATIONS




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial and Systems Accountability

SUBJECT:                   Audit Report – Express Mail Corporate Account Revenue
                           (Report Number DP-AR-13-003)

This report presents the results of our audit of Express Mail® Corporate Account
Revenue (Project Number 12BG025FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin H. Ellenberger, director,
Data Analysis and Performance, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Nagisa M. Manabe
    Gary C. Reblin
    Corporate Audit and Response Management
Express Mail Corporate Account Revenue                                                                             DP-AR-13-003



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Collection of Corporate Account Revenue ...................................................................... 2

   Express Mail Procedures ............................................................................................. 3

   Available Management Reports ................................................................................... 4

   Delivery Unit Procedures ............................................................................................. 5

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 8

   Prior Audit Coverage ................................................................................................... 9

Appendix B: Monetary Impacts ..................................................................................... 10

Appendix C: Management's Comments ........................................................................ 12
Express Mail Corporate Account Revenue                                                               DP-AR-13-003




Introduction

This report presents the results of our audit of Express Mail® corporate account revenue
(Project Number 12BG025FF000). Our objective was to determine whether the
U.S. Postal Service collects all revenue for services provided to Express Mail corporate
account (EMCA) customers. This self-initiated audit addresses financial risk. See
Appendix A for additional information about this audit.

Express Mail is the Postal Service’s premium delivery service for documents and
packages weighing up to 70 pounds. The Postal Service receives payment for
Express Mail through stamp sales, postage meters, automated postal centers, and
through electronic payment options such as PC Postage1 and Click-N-Ship.2 In addition,
the Postal Service offers business customers the ability to use a corporate account to
pay for postage through a credit card or automated clearing house (ACH) debit. The
Postal Service receives payment for corporate account pieces by withdrawing postage
from the customer's account when the piece is properly accepted. Table 1 provides a
breakdown for revenue and volume for Express Mail and corporate accounts for fiscal
years (FY) 2011 and 2012.

                         Table 1. Revenue and Volume of Express Mail

                                                                    Corporate           Corporate
                            All Express        All Express           Account             Account
                           Mail Revenue        Mail Volume           Revenue              Volume
        Fiscal Year        (in millions)       (in millions)       (in millions)       (in millions)
           2011                   $799.5                 40.5               $71.6                 3.1
           2012                   $801.6                 39.8               $63.6                 3.0
     Source: Revenue, Pieces, and Weight reports and EMCA History File.

We identified about 2.6 percent (2.1 million pieces) of all Express Mail pieces delivered
during FYs 2012 and 2011 that did not have an acceptance transaction processed. A
full acceptance transaction3 is required for all Express Mail, including corporate account
pieces, to capture information to determine refunds, if applicable, and measure Postal
Service performance. Additionally, information that is received from processing an
acceptance transaction for corporate account pieces is critical for the Postal Service to
collect all revenue.



1
  PC Postage™ products and services allow customers to purchase and print postage through the Internet using a
personal computer. PC Postage products are available through authorized vendors such as eBay and Stamps.com.
2
  Click-N-Ship products and services allow customers to purchase and print postage through USPS.com.
3
  A full acceptance transaction includes manually entering the complete label number, the ZIP Code, the expected
delivery date and time, the piece weight, the amount of postage, extra services requested by the customer, and the
payment account.

                                                         1
Express Mail Corporate Account Revenue                                                             DP-AR-13-003



The U.S. Postal Service Office of Inspector General (OIG) received complaints on its
hotline from Postal Service personnel alleging instances in which corporate account
pieces were delivered but customer accounts were not charged. Also, management has
expressed concern that not all revenue is collected due to improper acceptance
procedures that allow corporate account pieces to be delivered without charging the
customer.

When Postal Service personnel properly accept a corporate account piece, the
customer is charged and the Postal Service collects revenue. However, corporate
account pieces can enter the mailstream at several points that do not guarantee
acceptance transactions will be properly completed. Window clerks at retail facilities can
accept corporate account pieces and process an acceptance transaction. However,
carriers can also accept these pieces during pick-ups at customer locations and at
mailboxes but cannot process acceptance transactions to charge a corporate account
for postage. Therefore, the Postal Service has designated Express Mail clerks at
processing facilities to examine and scan each Express Mail piece individually.
Postal Service procedures4 state that if there is no 'origin information' on the piece, it
was never accepted, and the processing facility must conduct the full acceptance
transaction to collect the revenue.

Conclusion

The Postal Service did not collect all revenue for services provided to corporate account
customers. Specifically, Postal Service personnel did not follow acceptance procedures
or use existing management reports to identify mail processing facilities not complying
with Postal Service procedures to properly accept Express Mail packages. In addition,
delivery unit personnel were not required to provide additional safeguards against
uncollected revenue, such as processing an acceptance transaction when scanning
those individual Express Mail pieces for delivery. We identified that the Postal Service
did not collect revenue for corporate account pieces totaling about $1.75 million
annually and would continue to lose at least $1.3 million annually.

Collection of Corporate Account Revenue

The Postal Service did not collect all revenue for services provided to corporate account
customers. Express Mail clerks at mail processing facilities did not comply with Postal
Service procedures to identify and enter acceptance information for Express Mail that
bypassed acceptance at retail post offices. In addition, although not required, the Postal
Service did not use available management reports as a tool to identify processing
facilities not following Postal Service procedures or designate delivery units to process
full acceptance transactions. When a corporate account piece does not receive a full
acceptance transaction, customers are not charged for the mailing. We believe
compliance with acceptance procedures and the adoption of these two additional
controls would assist the Postal Service in collecting revenue for corporate accounts
4
    Standard operating procedure (SOP), Express Mail Acceptance in Processing Operations, February 2012.


                                                         2
Express Mail Corporate Account Revenue                                                                  DP-AR-13-003



that were not accepted at mail processing facilities. We estimate the Postal Service did
not collect revenue for corporate account pieces totaling $1.9 million for FY 2011 and
$1.6 million for FY 2012 and would continue to lose as much as $1.3 million annually
over the next 2 fiscal years until the process is improved. See Appendix B for monetary
impact calculations.

Express Mail Procedures

Postal Service personnel do not always follow Postal Service procedures5 to process
full acceptance transactions for Express Mail pieces that have bypassed the retail Post
Office. Mail processing employees must visually verify the origin information section6 of
an Express Mail label to determine whether acceptance information has been entered.
This verification is conducted when processing employees examine Express Mail pieces
as they scan them for tracking purposes at the processing facility. See Figure 1.

                    Figure 1. Express Mail Label Missing Origin Information




    Source: Postal Service Mailing Label 11-F.

During the audit, we observed processing operations and interviewed Postal Service
personnel regarding Express Mail and corporate accounts at four mail processing
facilities. At one mail processing facility, we observed more than 400 Express Mail
pieces dispatched without receiving a full acceptance transaction. Additionally, during
an interview at a mail processing facility, we asked an employee how she would handle
an Express Mail piece if the origin information section of the label was not completed.
The employee stated she does not look for this label information and would distribute
the piece in the appropriate sack for dispatch “to get the mail out." Further, we asked a
supervisor at a mail processing facility why a piece we found missing origin information
did not receive a full acceptance transaction. The supervisor stated that the piece was

5
 SOP, February 2012.
6
 Origin information section is short for 'ORIGIN (POSTAL SERVICE USE ONLY).' It contains the Express Mail
piece's acceptance information such as origin ZIP Code, date, time, weight, and the acceptance clerk's initials.


                                                           3
Express Mail Corporate Account Revenue                                                                    DP-AR-13-003



not put aside to receive a full acceptance transaction because they did not want to slow
down the dispatch process, and they are required to get the mail out quickly.

During an observation at a mail processing facility, we identified corporate account
pieces that were not accepted by processing personnel. We used the Product Tracking
System7 (PTS) to confirm that these corporate account pieces were delivered and that
the Postal Service did not collect revenue for the Express Mail services provided.

Available Management Reports

The Postal Service could improve internal controls by using available management
reports as a tool to identify facilities that are not complying with Postal Service policy to
enter full acceptance transactions when acceptance information has not been entered.
Specifically, the Postal Service’s Service and Field Operations Performance
Measurement office8 created and developed the Missing Acceptance Reports for
Express Mail to measure service performance of Express Mail pieces.9 We determined
that this report could be used to identify mail processing facilities with high volumes of
Express Mail pieces that had not received full acceptance transactions.

We validated and confirmed the nationwide Missing Acceptance Reports results by
visiting a mail processing facility that contained high instances of Express Mail pieces
missing acceptance transactions. We observed employees not complying with the
Postal Service procedures for acceptance transactions and, therefore, believe these
reports are an effective tool for identifying mail processing facilities that do not comply
with procedures for conducting full acceptance transactions. There were about
2.1 million Express Mail pieces included in these reports for FYs 2011 and 2012 that
were identified as missing acceptance transactions.

We believe this report would be an effective tool for Express Mail using corporate
accounts for payment, because revenue will not be collected unless a full acceptance
transaction has occurred. These mailers prepay for postage through a credit card or
ACH debit. For noncorporate account mailers, pieces are less likely to be uncollected,
because the mailers generally pay for Express Mail delivery through stamp sales and
postage meters. It is unlikely a corporate account will pay using stamps or meters
because they run the risk of being charged twice for the mailing: once with stamps and
then again when the package receives a full acceptance transaction.




7
  The PTS is a web interface allowing users to track mailpieces from acceptance through delivery.
8
  The office within the Performance and Field Operations Support group is responsible for developing service
performance analysis and diagnostic models for external First-Class Mail, Commercial Mail, Priority Mail, Express
Mail, and Package Services.
9
  Missing Acceptance Reports for Express Mail are weekly reports that list Express Mail pieces nationwide that are
delivered without receiving a full acceptance transaction. The report does not identify retail units as mail entry points
because origin information is incomplete. It reports processing facilities that have scanned the piece but did not enter
a full acceptance transaction.


                                                            4
Express Mail Corporate Account Revenue                                                                    DP-AR-13-003




Delivery Unit Procedures

The Postal Service could improve internal controls by designating delivery units to
collect revenue for corporate account pieces that mail processing facilities did not
accept. Specifically, we visited eight delivery units and found that delivery unit personnel
must manually process and scan10 every Express Mail piece they receive. By assigning
delivery units the responsibility to check Express Mail pieces for acceptance, the
Postal Service can implement an additional control over potential revenue losses
without incurring significant additional costs. Processing acceptance transactions for
corporate account postage at a delivery unit is the last opportunity for the Postal Service
to collect revenue for a corporate account piece before it is delivered to the addressee.

Recommendations

We recommend the vice president, Network Operations:

1. Provide the Missing Acceptance Reports to area managers, Operations Support, to
   identify and notify mail processing facilities to improve full acceptance transactions
   for Express Mail corporate account pieces.

We recommend the vice president, Delivery and Post Office Operations:

2. Update and reissue procedures directing delivery units to identify Express Mail
   corporate account pieces that had not yet been accepted and enter acceptance
   transactions.

Management’s Comments

Management provided two seperate responses. We received one response on
January 25, 2013 and then on February 13, 2013, management provided revised
comments for recommendation 2.

Management comments, on January 25, 2013, agreed with recommendation 1 and
stated that Processing Operations will provide the Missing Acceptance Reports to the
area managers, Operations Support, to improve acceptance transactions for EMCA
pieces. The target implementation date is March 31, 2013. However, management
disagreed with recommendation 2 and our monetary impact.

Management revised their comments to recommendation 2 on February 13, 2013.
Management stated that, although they still have reservations regarding our findings as
stated in the original response dated January 25, 2013, they agreed to review their
procedures for compliance with EMCA policies and will collaborate with the areas to


10
     The delivery units are required to accomplish an Arrival At Unit scan for each Express Mail piece they receive.


                                                             5
Express Mail Corporate Account Revenue                                            DP-AR-13-003



reissue policies and procedures regarding proper acceptance. The target
implementation date is May 31, 2013.

Management disagreed with our monetary impact, stating that uncollected EMCA
revenue cannot be definitively determined based on the data and methodology used in
our estimate. Further, they believe there is no information in the draft report to verify that
the methodology we applied resulted in a reasonable estimate and there is not enough
information to validate the estimated potential revenue loss. In addition, management
noted an incorrect number in our monetary impact calculations shown in Appendix B.
See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management's comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

Regarding the disagreement with our monetary impact, we noted that Postal Service
internal controls do not provide for sufficient information to know for certain the
magnitude of revenue loss associated with unprocessed Express Mail acceptance
transactions. Accordingly, we developed a methodology to estimate the amount of the
loss and discussed our methodology with management on several occasions.
Management neither objected nor suggested alternatives during our meetings. We
believe our methodology is fair and reasonable. However, management did correctly
point out an error in our monetary impact calculations shown in Appendix B. We
corrected our error, and our estimated monetary impact changed from $6,179,029 to
$6,178, 714 for a difference of $315. We informed management of this error subsequent
to issuing our draft report but prior to receiving their management comments.




                                              6
Express Mail Corporate Account Revenue                                                                  DP-AR-13-003



                                 Appendix A: Additional Information

Background

Express Mail is the Postal Service's fastest service, with a money-back guarantee and
overnight delivery to most U.S. addresses. Services include Free Package Pickup;
signature proof of delivery; and $100 in insurance free of charge to cover lost, rifled, or
damaged packages, with additional insurance available up to $5,000.

Express Mail pieces are tracked from the point of acceptance to the point of delivery. A
full acceptance transaction can be processed by a Point of Service (POS) ONE
terminal,11 Integrated Retail Terminal (IRT),12 or PTS Web13 application. The
requirement for an Express Mail piece to receive a full acceptance transaction ensures
that volume and revenue are properly reported and collected.

The Missing Acceptance Reports for Express Mail lists Express Mail pieces that are
processed and delivered without receiving a full acceptance transaction. The report is
produced weekly and contains information that identifies the scans applied to each
Express Mail piece that did not receive a full acceptance transaction. The type of scan
and the location where it was applied are included in the report for each Express Mail
piece that was processed and delivered.

The Postal Service receives payment for Express Mail through stamp sales, postage
meters, automated postal centers, and electronic payment options. In addition, the
Postal Service offers business customers use of a corporate account to pay for postage
through a credit card or an ACH debit. The Postal Service receives payment for
corporate account pieces by withdrawing postage from the customer's account when
the piece is properly accepted.

Postal Service customers interested in applying for a corporate account to pay for
Express Mail service may do so by completing Postal Service (PS) Form 5639, EMCA
Account Application and Payment Authorization.14 Customers will send this form by mail
or fax it to the stamp fulfillment center in Kansas City, MO. Customers select their
preferred method of payment, either credit card or ACH debit, on the application
submitted. In addition, customers may fund a corporate account with a Centralized




11
   The POS ONE terminal is the primary hardware and software system used to conduct sales transactions during the
Post Office check-out process. Corporate account pieces can receive full acceptance transactions at POS ONE
Terminals.
12
   The IRT is the first-generation sales transaction system used at select post offices. Corporate account pieces can
receive full acceptance transactions at an IRT.
13
   The PTS web interface allows users to access different types of functionality related to Express Mail, including the
ability for manual offices to enter corporate account information to collect revenue.
14
   PS Form 5639 must be completed to open a new Express Mail corporate account or to select a new payment
option for an existing account.


                                                          7
Express Mail Corporate Account Revenue                                                             DP-AR-13-003



Account Processing System (CAPS)15 account. This link is established by the CAPS
Service Center in San Mateo, CA upon receipt of a customer request.

With a corporate account, customers can charge their Express Mail pieces to one
account. The customers can deposit shipments paid through their corporate account at
any Express Mail collection box, at the Post Office, or with a postal letter carrier.

A corporate account piece will be charged once it has received a full acceptance
transaction. For FYs 2011 and 2012, corporate accounts had a volume of more than
6 million (7.5 percent of Express Mail volume) mailpieces and revenue of more than
$135 million (8.4 percent of Express Mail revenue).

Objective, Scope, and Methodology

Our objective was to determine whether the Postal Service collects all revenue for
services provided to EMCA customers. To accomplish this objective, we reviewed
Postal Service criteria and Postal Service procedures. In addition, we:

    Reviewed the Revenue, Pieces and Weight16 reports for FYs 2011 and 2012.

    Conducted observations and interviewed personnel at processing facilities and
     delivery units.

    Interviewed Postal Service Headquarters management and various district
     management nationwide.

    Queried the Missing Acceptance Reports for Express Mail on the Postal Service’s
     intranet.

    Queried and reviewed the PTS and EMCA application data.

    Used the Audit Command Language™ software for complex data analysis pertaining
     to Express Mail missing full acceptance transactions.

We conducted this performance audit from May 2012 through March 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our


15
   A CAPS account is an electronic postage payment system that provides business mailers a centralized way to fund
accounts such as permit imprint, Business Reply Mail, and Express Mail corporate accounts.
16
   These quarterly reports contain the revenue and volume for different types of mail, including Express Mail.


                                                        8
Express Mail Corporate Account Revenue                                        DP-AR-13-003



observations and conclusions with management on December 17, 2012, and included
their comments where appropriate.

To conduct this audit, we relied on computer-processed data maintained by
Postal Service operational systems. We did not test the validity of controls over these
systems; however, we verified the accuracy of the data by confirming our analysis and
results with Postal Service managers and other postal data sources. We determined
that the data were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

The OIG conducted one previous audit for Express Mail Guarantees (Report Number
FF-AR-11-004, dated December 15, 2010) within the past 3 years. The objective of this
audit was to determine whether it was prudent business practice for the Postal Service
to guarantee Express Mail service to all ZIP Codes and American territories. In addition,
we determined whether or not the Postal Service was monitoring corporate account
negative balances and closing inactive accounts effectively. This self-initiated audit had
three findings: management did not determine or address the reasons for late Express
Mail deliveries, no system was in place to track Express Mail refunds, and Postal
Service districts were not always monitoring inactive corporate accounts. Management
generally agreed with all findings and recommendations.




                                            9
Express Mail Corporate Account Revenue                                                                DP-AR-13-003



                                    Appendix B: Monetary Impacts


           Recommendation                      Impact Category                              Amount
                 1                     Revenue Loss17                                      $3,533,161
                 1                     Funds Put to Better Use18                            2,645,553
               Total                                                                       $6,178,714

Revenue Loss

In FYs 2011 and 2012, Express Mail volume was 40,492,000 and 39,823,000,
respectively. Corporate account volume for FY 2011 was 3,088,396 (7.63 percent of
total Express Mail) and, for FY 2012, it was 2,963,707 (7.44 percent of total Express
Mail). Corporate account revenue for FY 2011 was $71,645,519, which is a revenue per
piece average of $23.20. In FY 2012, revenue was $63,600,317, which yields a revenue
per piece average of $21.46.

We used the Missing Acceptance Reports for Express Mail to determine the total
Express Mail pieces for FYs 2011 and 2012 without a full acceptance transaction. Using
a proportion of corporate account mailings to total Express mailings, we estimated the
number of pieces on the Missing Acceptance Reports for Express Mail to be corporate
account mailings.

In FY 2011, the Missing Acceptance Reports for Express Mail had 1,096,648 pieces.
We estimate 7.63 percent of these pieces were corporate account mailings, for a total of
83,674. In FY 2012, the report identified 997,050 pieces. We estimate 7.44 percent of
these pieces were corporate account mailings, for a total of 74,181.

We multiplied our estimated FYs 2011 and 2012 corporate account pieces missing
acceptance transactions by the average revenue per piece. For FY 2011, we estimate
the value for corporate account pieces missing full acceptance transactions as
$1,941,236.80 ($23.20 multiplied by 83,674). For FY 2012, we estimate the value for
corporate account pieces missing full acceptance transactions as $1,591,924.26
($21.46 multiplied by 74,181). Our estimated revenue loss was
$3,533,161.06($1,941,236.80 plus $1,591,924.26).




17
   Amount Postal Service was entitled to receive but was underpaid or not realized because policies, procedures,
agreements, requirements, or good business practices were lacking or not followed.
18
   Funds that could be used more efficiently by implementing recommended actions.


                                                         10
Express Mail Corporate Account Revenue                                       DP-AR-13-003



Funds Put to Better Use

We used mailing trends for corporate accounts to determine the funds put to better use.
Based upon FYs 2010, 2011, and 2012, we determined that corporate account revenue
would be reduced by 11.73 percent per year on average. We used the $1,591,924 as
revenue loss in FY 2012 and reduced it by 11.73 percent to yield funds put to better use
for FY 2013 of $1,405,191. We reduced this amount by 11.73 percent again to yield
funds put to better use for FY 2014 of $1,240,362. We estimate total funds put to better
use to be $2,645,553 ($1,405,191 for FY 2013 plus $1,240,362 for FY 2014).




                                           11
Express Mail Corporate Account Revenue                        DP-AR-13-003



                          Appendix C: Management's Comments




                                         12
Express Mail Corporate Account Revenue        DP-AR-13-003




                                         13
Express Mail Corporate Account Revenue        DP-AR-13-003




                                         14
Express Mail Corporate Account Revenue        DP-AR-13-003




                                         15
